           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
         ADMINISTRATION’S
      REPRESENTATIVE PAYEE
        SELECTION PROCESS

      May 2004   A-01-04-14008



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM
Date:   May 21, 2004                                                                     Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: The Social Security Administration’s Representative Payee Selection Process
        (A-01-04-14008)


        Our objective was to determine whether the Social Security Administration’s (SSA)
        procedures ensured that beneficiaries who were incapable of managing or directing the
        management of their finances were paid through representative payees.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their age or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these individuals’ Social
        Security benefit payments.1 A representative payee is a person, agency, organization,
        or institution selected to receive and manage benefits on behalf of a beneficiary.
        Representative payees are responsible for using Social Security benefits to serve the
        beneficiaries’ best interests. Their duties include (1) using benefits for the use and
        benefit of the beneficiary; and (2) reporting events to SSA that may affect the amount of
        benefits the beneficiary receives or the right of the beneficiary to receive benefits.2

        The disability determination, including giving an opinion regarding capability to manage
        benefits, is made by Disability Determination Services’ (DDS) medical examiners. At
        the end of each review, the DDS office prepares a Disability Determination and
        Transmittal form (SSA – 831) that includes the decision as to whether the individual is




        1
            Social Security Act §§ 205(j) and 1631(a)(2); 42 United States Code §§ 405(j) and 1383(a)(2).
        2
            20 C. F. R. §§ 416.635 and 404.2035.
Page 2 – The Commissioner


disabled and the DDS’ opinion regarding capability.3 An electronic version of this form
is transmitted to the National Disability Determination Services System maintained by
SSA.

SSA Field Offices (FO) must determine capability if there is a suspicion that the
beneficiary has a mental or physical condition that prevents him/her from managing or
directing someone else to manage his or her benefits.4 The capability determination is
based on an evaluation of medical, legal and lay evidence (including contact with the
beneficiary and information from individuals familiar with the beneficiary).5 Based on the
evidence obtained, SSA must determine whether the beneficiary’s best interests would
be served by representative payment or direct payment.6

SSA requires that all capability decisions (whether they find representative payment or
direct payment appropriate) be documented.7 The DDS opinion is evidence of
capability; however, it is not a definitive determination on capability. The FO is
responsible for developing, evaluating and deciding all representative payee matters.8
FO claims representatives are responsible, among other things, for (1) deciding
capability and (2) appointing a representative payee.9 As of January 2003, about
7.6 million individuals had representative payees.

If the beneficiary’s claim is not updated with the representative payee information (by
SSA’s Representative Payee System or directly by FO staff), then benefits will be paid
directly to the beneficiary. The Representative Payee System information may not


3
  DDS’ opinion as to whether an individual is capable of managing his or her own benefits is documented
in the capability development flag field. This field can be coded: “N” – Capable, “Y” – Incapable, or “U” –
Capability is Unresolved. This field notifies the SSA Field Office if the ability to manage benefits is an
issue on a claim that has been allowed.
4
 Program Operations Manual System (POMS) sections GN 00502.060 B.1 and GN 00502.020 A.1.
According to POMS section GN 00502.005, the following individuals are prohibited from receiving
payments directly: (a) individuals declared legally incompetent under State law and (b) children under
age 15. However, if the child is emancipated under State law, SSA policy indicates that an assumption
should be made that the child is capable unless some other indicator suggests otherwise.
GN 00502.070 A. A child aged 15 to 17 is generally considered capable of managing his or her own
benefits unless he/she has a court-appointed legal guardian or is entitled to disability benefits and a
substance abuse condition exists, which indicates that he/she may need assistance. GN 00502.070 A.1.
5
    POMS sections GN 00502.060 B.2 and GN 00502.050 B.1 and 2.
6
  POMS section GN 00502.060 B.2. According to POMS section GN 00504.105 A.2, the Agency’s policy
is to pay benefits directly to the beneficiary while a payee is being sought, unless direct payment is
prohibited.
7
    POMS section GN 00502.020 C.
8
    POMS section GN 00501.015 B.
9
    POMS section GN 00501.015 B.1.
Page 3 – The Commissioner


update the individual’s claim if there is a keying error (such as an incorrect Social
Security number) or if a Supplemental Security Income claim was processed outside of
the Agency’s Modernized Supplemental Security Income Claims System.10

RESULTS OF REVIEW
SSA adequately determined that representative payees were not needed and direct
payment was appropriate in about 89.5 percent of our sample cases. However, we
found that about 9 percent of the cases were not worked properly. The Agency’s
procedures did not ensure that all beneficiaries who were incapable of managing or
directing the management of their finances were paid through representative payees. If
incapable beneficiaries are paid directly, their basic needs (food, clothing, and shelter)
may not be met. We did not find a process in place to ensure that capability
determinations were made for every case in which there was an indication that the
beneficiary was not able to manage his or her own benefits. Also, we did not find a
process in place to ensure that beneficiaries’ claims were updated when representative
payees were appointed. Based on our review of 200 sample cases,11 we estimate that
at least 17,035 beneficiaries were paid at least $342 million that should have been paid
through representative payees.

Specifically, our review of 200 sample cases found that in:

         179 cases (89.5 percent) direct payment of benefits was proper;12

         18 cases13 (9 percent) the beneficiaries were not capable of managing their
          benefits and $440,318 was paid to them that should have been paid through
          representative payees;14




10
     Modernized Systems Operations Manual section 238-B.
11
  Of the 200 sample cases, 110 had a capability development flag of “Y” – Incapable and 90 had a
capability development flag of “U” – Capability is Unresolved.
12
  In 154 of these 179 cases, we determined the beneficiaries were capable based upon information
contained in various electronic databases or based upon information in SSA’s case folders. In the
remaining 25 cases, we were unable to locate documentation that FO employees had determined the
beneficiaries were capable of receiving payments directly. FO employees reviewed these 25 cases (at
our request) and determined these beneficiaries were capable of managing their own benefits.
13
  Of these 18 cases, 15 had a capability development flag of “Y” – Incapable and 3 had a capability
development flag of “U” – Capability is Unresolved.
14
   The diagnosis codes in 16 of these 18 cases related to mental impairments and the remaining 2 cases
were non-mental impairments. The representative payees later selected by SSA to manage the benefits
in 14 of these 18 cases were relatives of the beneficiaries.
Page 4 – The Commissioner


        2 cases (1 percent) the individuals were no longer receiving benefit payments
         from SSA and therefore we did not determine whether the previously issued
         payments should have been paid through representative payees; and

        1 case (0.5 percent) a FO review to determine whether the beneficiary is capable
         of managing her benefits has not been completed.

PAYMENTS SHOULD HAVE BEEN PAID THROUGH REPRESENTATIVE PAYEES

For 18 cases in our sample, FO staff—using the guidelines described under the
background section of this report—determined that these beneficiaries were incapable
of managing their own benefits. These 18 beneficiaries received $440,318 in payments
that should have been paid through representative payees.15 In 7 of the 18 cases
(39 percent), FO staff documented that the beneficiaries were incapable of managing
their own benefits, however due to FO error, payees were not established and benefits
were paid directly to the beneficiaries. For the remaining 11 cases (61 percent), we
were unable to locate documentation that demonstrated whether FO staff had
determined the beneficiaries were capable of managing their own benefits. FO staff
reviewed these 11 cases, at our request, and determined the beneficiaries were not
capable and that benefits should be paid through representative payees.

The following are 2 examples from the 18 beneficiaries who were incapable of
managing their benefits, but who were paid directly:

(1) A beneficiary with a diagnosis of Bipolar Disorder was found disabled in June 2002;
    and
        The DDS documented its opinion that the individual was incapable of managing
         his own benefits.
        The remarks section on the disability determination form in this beneficiary’s case
         folder documented the opinion from the medical doctor who saw the individual
         that he was incapable of managing his own benefits.
        SSA’s Modernized Claims System contained remarks that the beneficiary was
         incapable of managing his benefits.
        SSA FO staff took a representative payee application from this person’s mother-
         in-law using the Representative Payee System.
     We sent this case to the FO for review and the FO specialist determined the
     individual was incapable of managing his own benefits. The FO specialist wrote the
     following: "It appears that the [claims representative] did load a payee application

15
   In all cases we referred to FOs, we notified the FO that they should refer cases suspected to involve
fraud to their local Office of the Inspector General, Office of Investigations. In none of the cases—where
it was determined payment should be made through a representative payee—have we been notified that
fraud was involved.
Page 5 – The Commissioner


   into the system. For some reason the payee did not attach to the claim. The payee
   application has been retriggered and should show on the [Master Beneficiary
   Record] by Tuesday 9/23/03. I have issued a reminder to my unit to double check
   payee information before clearing their claims.” Since there was no process in place
   to identify and correct this case, the beneficiary was paid 27 months of benefits
   totaling $16,767 that should have been paid through a representative payee.

(2) A beneficiary with a diagnosis of Mental Retardation was found disabled in
    July 1999; and
      The DDS documented its opinion that the beneficiary was incapable of managing
       her benefits.
      The remarks section on the disability determination form in this beneficiary’s case
       folder documented the opinion from the psychologist who saw the individual that
       she was incapable of managing her own benefits. The doctor’s report included
       the following: “At this point in time, should the client’s claim be granted or
       continued, it is not felt that the client is able to manage her funds in an
       appropriate, practical or realistic manner.”

   We reviewed this case folder and SSA’s electronic systems and determined that a
   capability review was not performed by the FO. We requested the FO review the
   case. After contacting the beneficiary, the FO Technical Expert determined that the
   beneficiary was not capable and therefore, needed to have a representative payee.
   This beneficiary was paid 58 months of benefits totaling $41,341 that should have
   been paid through a representative payee—since there was no process in place to
   follow-up on cases requiring capability development.

CONCLUSIONS AND RECOMMENDATIONS
SSA did not document capability in all cases where there was an indication that the
beneficiary could not manage or direct the management of his or her benefits.
Additionally, SSA is not ensuring that payments to all beneficiaries determined to be
incapable are paid through representative payees. Since incapable beneficiaries cannot
manage their own funds to ensure their needs—such as food, shelter and medical
care—are met, we believe SSA should take all feasible steps to ensure these
vulnerable individuals have representative payees. Therefore, we recommend that
SSA:
1. Assess available information to determine whether there is a cost-effective method
   to identify those individuals currently receiving benefits directly, but who are actually
   incapable of managing their funds. We estimate there are at least
   17,035 beneficiaries currently in this situation.
2. Ensure SSA staff document capability in all cases where there is an indication that
   the beneficiary may not be able to manage his or her own benefits.
3. Develop a process that ensures all incapable beneficiaries’ payments are paid to the
   appointed representative payees.
Page 6 – The Commissioner


AGENCY COMMENTS

Generally, SSA agreed with our recommendations. Specifically, the Agency assessed
available information—as requested in our first recommendation—and determined a
cost-effective methodology could not be developed to identify individuals currently
receiving benefits directly, but who are actually incapable of managing their funds.
Additionally, SSA agreed with our second recommendation and will issue a reminder to
staff to develop and document their decisions on capability. The Agency will also
consider the feasibility of future systems enhancements to enforce this documentation
requirement. For our third recommendation, SSA will evaluate the case included in our
report, assess its systems, and then share the results with the OIG. (See Appendix D
for the Agency’s comments.)

OIG RESPONSE
We understand that SSA has limited resources and the Agency believes it is not cost-
effective at this time to re-assess prior cases. However, the OIG may do additional
work in the future to develop a cost-effective method for the Agency to identify and
appoint representative payees for beneficiaries who need them. Additionally, we will
assess the information SSA shares with us—once the Agency completes its evaluation
of the case in our report and its systems—to determine whether further action is
needed.




                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                               Appendix A

Acronyms
 C.F.R.    Code of Federal Regulations

 DDS       Disability Determination Services

 FO        Field Office

 POMS      Program Operations Manual System

 SSA       Social Security Administration
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies and procedures.

   Obtained a data file of 288,803 records containing all individuals in current pay
    status without representative payees who had allowance decisions made by a
    Disability Determination Service during the period 1995 through 2002 and who had
    capability development flags of “Y” – Incapable or “U” – Capability is Unresolved.
    From this population, we selected a random sample of 200 cases and projected our
    sample results to the population.

   Obtained the Master Beneficiary Record and/or Supplemental Security Record for
    each sample case. Using these records, we confirmed that the beneficiaries’ Old-
    Age, Survivors and Disability Insurance benefits and/or Supplemental Security
    Income payments were paid directly to the beneficiary.

   Reviewed the Master Beneficiary Record, Supplemental Security Record,
    Representative Payee System, Modernized Claims System, Modernized
    Supplemental Security Income Claims System and/or SSA case folder to assess
    whether SSA determined the beneficiaries were capable and thus should be paid
    directly.

   For cases in which we were unable to conclude that SSA determined the
    beneficiaries were able to manage or direct the management of their own benefits,
    we requested that the servicing field offices (FO) review the cases to determine
    whether it was proper for the beneficiaries to receive benefits directly or whether
    payments should be made through representative payees. For those cases where
    the FOs determined the beneficiaries were not capable of managing their own
    benefits, we calculated the dollar amounts and the number of months of benefits
    paid directly. This was done through the date we reviewed each case.

We conducted our audit between September and December 2003 in Boston,
Massachusetts. We found the data used for this audit were sufficiently reliable to meet
our audit objective. We did not conduct reviews of the beneficiaries to determine
whether their actual needs were met during the period SSA paid their Social Security
funds directly instead of through representative payees. The entity audited was SSA’s
FOs under the Deputy Commissioner for Operations. We conducted our audit in
accordance with generally accepted government auditing standards.
                                                                               Appendix C

Sampling Methodology and Results
To assess whether Social Security Administration (SSA) procedures ensured that
beneficiaries who were incapable of managing or directing the management of their
finances were paid through representative payees, we obtained an extract of all initial
decisions in Calendar Years 1995 through 2002. All cases that had capability
development flags of “Y” – Incapable or “U” – Capability is Unresolved were matched
against the Master Beneficiary Record and Supplemental Security Record. We
extracted all cases that were in current pay status and did not have representative
payees. This match resulted in 288,803 records. We selected a random sample of
200 cases from this population.

                            Sample Results and Projections
Population size                                                                     288,803
Sample size                                                                             200
                                    Attribute Projections
Number of beneficiaries to whom SSA paid benefits directly—                              18
instead of through representative payees
Point estimate of cases in the population                                             25,992
   Projection lower limit                                                            17,035
   Projection upper limit                                                            37,697
                                      Dollar Projections
Benefits paid directly to individuals in sample cases that should                  $440,318
have been paid through representative payees
Point estimate of benefits paid in the population                               $635,825,797
   Projection lower limit                                                       $341,969,487
   Projection upper limit                                                       $929,682,106
   Note: All projections were calculated at the 90-percent confidence level.
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM                                                                         33239-24-1136


Date:      April 30, 2004                                                          Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Representative Payee Selection Process” (A-01-04-14008)--INFORMATION


           We appreciate the OIG's efforts in conducting this review. Our comments on the report content
           and recommendations are attached.

           Please let us know if we can be of further assistance. Questions can be referred to
           Candace Skurnik, Director of the Audit Management and Liaison Staff at extension 54636. Staff
           questions can be referred to Trudy Williams at extension 50380.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S REPRESENTATIVE PAYEE
SELECTION PROCESS” (A-01-04-14008)


Thank you for the opportunity to comment on the subject draft report. Our response to the
specific recommendations is provided below.

Recommendation 1

SSA should assess available information to determine whether there is a cost-effective method to
identify those individuals currently receiving benefits directly, but who are actually incapable of
managing their funds. OIG estimate there are at least 14,679 beneficiaries currently in this
situation.

Comment

We have assessed the available information and determined that we could not establish a cost-
effective methodology. SSA would need to undertake a manual review of all folders to
determine if any overlooked information related to incapability was in the folder. As such, it
would not be cost-effective to review thousands of folders in order to find the potential cases
where capability would need to be developed.

Recommendation 2

SSA should ensure staff document capability in all cases where there is an indication that the
beneficiary may not be able to manage his or her own benefits.

Comment

We agree. Documentation of capability is critical when there is an indication that the individual
may not be able to manage his or her own benefits. Current policy requires the completion of the
“Beneficiary/Recipient Special Text” screen in the Representative Payee System (RPS) path
when capability is an issue. We will issue a reminder to claims technicians to develop and
document their decisions on capability, particularly when the Disability Determination Services
has indicated that a capability issue exists. We will also consider the feasibility of future
systems enhancements to enforce this policy requirement.

Recommendation 3

SSA should develop a process that ensures all incapable beneficiaries’ payments are paid to the
appointed representative payees.




                                              D-2
Comment

We agree in part. The situation described in the report suggests that there could be a problem
with the Modernized Claims System or the RPS. We will evaluate the particular case to
determine where the problem lies. Once our review is complete, we will share our results with
OIG.


[In addition to the items listed above, SSA also provided technical comments which
have been addressed, where appropriate, in this report.]




                                            D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, (617) 565-1765

Acknowledgments

In addition to those named above:

   Mike Atherton, IT Specialist

   Phillip Hanvy, Program Analyst

   Kevin Joyce, IT Specialist

   Brennan Kraje, Statistician

   Joseph LoVecchio, Auditor

   David Mazzola, Audit Manager


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-04-14008.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
